Report No. D-2010-066                   May 28, 2010






          Oversight of the U.S. Air Forces Central 

              War Reserve Materiel Contract


Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFCENT                        Air Forces Central
AFRB                          Award Fee Review Board
AMIC                          Acquisition Management and Integration Center
CAR                           Corrective Action Request
CLIN                          Contract Line Item Number
DCAA                          Defense Contract Audit Agency
FAR                           Federal Acquisition Regulation
FDO                           Fee Determining Official
IPMP                          Integrated Performance Management Plan
MOU                           Memorandum of Understanding
PWS                           Performance Work Statement
QAE                           Quality Assurance Evaluator
SSET                          Source Selection Evaluation Team
WRM                           War Reserve Materiel
                                  INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON, VIRGINIA 22202-4704 





                                                                            May 28, 2010

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE AIR FORCE

SUBJECT: 	     Oversight ofthe U.S. Air Forces Central War Reserve Materiel Contract
               (Report No. D-201O-066)

We are providing this report for information and use. This audit was conducted pursuant
to the requirements of Public Law 110-181, the FY 2008 National Defense Authorization
Act, section 842. We considered management comments on a draft ofthe report in
preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive
7650.3 and left no unresolved issues. Therefore, we do not require any additional
comments. As a result of management comments and additional audit work, we deleted
draft Recommendations B.3.d and B.4.b. Draft Recommendation B.4.a was renumbered
as Recommendation B.4.

We appreciate the courtesies extended to the staff. Please direct questions to Jacqueline
Wicecarver at (703) 604-9077 (DSN 664-9077).

                                           jL a A.   ~/
                                           ~!: BU'!trv,
                                                    A.
                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2010-066 (Project No. D2009-D000AS-0264.000)                      May 28, 2010


               Results in Brief: Oversight of the U.S. Air
               Forces Central War Reserve Materiel
               Contract
What We Did                                             of fluctuations in WRM requirements. Troop
                                                        withdrawals in Iraq and troop surges in
The audit objective was to determine whether
                                                        Afghanistan could cause the estimated contract
Air Force officials awarded and were providing
                                                        value to exceed the scope of the original
oversight of the U.S. Air Forces Central
                                                        competition, requiring AMIC to recompete the
(AFCENT) War Reserve Materiel (WRM)
                                                        contract.
contract (FA4890-08-C-0004) in accordance
with Federal and DOD policies.
                                                        What We Recommend
What We Found                                           We recommend the Commander, Air Combat
                                                        Command, direct AMIC and AFCENT officials
Acquisition Management and Integration Center
                                                        to execute a formal, written memorandum of
(AMIC) officials properly awarded the
                                                        understanding that defines roles,
$419 million WRM contract and improved
                                                        responsibilities, and accountability of the two
management of the new WRM contract.
                                                        organizations regarding the WRM program. We
However, AMIC and AFCENT needed a formal
                                                        recommend the Director of Logistics, AFCENT,
structure to address the following problems.
                                                        and the Director, AMIC, Air Combat
   AMIC and AFCENT did not have a formal               Command, develop and implement written
    agreement that clearly defined the roles,           standard operating procedures formalizing each
    responsibilities, and accountability of AMIC        organization’s internal control processes. We
    and AFCENT personnel regarding the                  recommend that the Director, AMIC, Air
    WRM program because AMIC and                        Combat Command, develop internal controls to
    AFCENT personnel could not agree on                 identify scope changes and ensure that
    language describing program management              significant proposed alterations to the WRM
    and functional area roles, responsibilities,        contract are reviewed as potential scope
    and accountability.                                 changes.
   AMIC and AFCENT did not develop written
    standard operating procedures for the WRM
    program’s internal control processes.
                                                        Management Comments and
    AFCENT officials lacked defined processes           Our Response
    while ineffectively managing the former             Comments from the Commander, Air Combat
    WRM contract and had no formal processes            Command; the Commander, AFCENT; the
    for the new contract. This occurred because         Director, AMIC, Air Combat Command; and
    AMIC officials did not foresee the need to          the Director of Logistics, AFCENT were
    formalize the processes to ensure continuity.       responsive and met the intent of the
These problems could later result in delayed            recommendations. Therefore, we do not need
WRM requirements execution, ineffective                 additional comments. Please see the
quality assurance surveillance, and failure in          recommendations table on the back of this page.
other internal control processes.

During the base year of the WRM contract, the
total estimated contract value increased by
approximately $24 million (6 percent) because
                                                    i
Report No. D-2010-066 (Project No. D2009-D000AS-0264.000)         May 28, 2010



Recommendations Table
Management                           Recommendations        No Additional Comments
                                     Requiring Comment      Required
Commander, Air Combat                                       B.1
Command
Commander, U.S. Air Forces                                  B.2
Central
Director, Acquisition Management                            B.3
and Integration Center, Air Combat
Command
Director of Logistics, U.S. Air                             B.4
Forces Central




                                               ii
Table of Contents

Introduction                                                               1     


      Objective                                                            1     

      Background                                                           1     

      Review of Internal Controls                                          2


Finding A. Improved Management of the New War Reserve Materiel Contract    3


Finding B. Roles, Responsibilities, and Accountability                     9


      Recommendations, Management Comments, and Our Response              16 


Appendix: Scope and Methodology                                           19 


      Prior Coverage                                                      20     


Management Comments

      Air Combat Command                                                  21 


      U.S. Air Forces Central                                             24


Introduction
Objective
The audit objective was to determine whether Air Force officials awarded and were
providing oversight of the U.S. Air Forces Central (AFCENT) War Reserve Materiel
(WRM) contract (FA4890-08-C-0004) in accordance with Federal and DOD policies.
See the Appendix for a discussion of the scope and methodology and prior coverage.

Background
AFCENT used the WRM contract to provide support for deployed forces in the AFCENT
area of responsibility by pre-positioning, maintaining, reconstituting,1 and deploying
WRM needed for operational plans and contingencies. WRM storage and maintenance
locations included Seeb, Oman; Thumrait, Oman; Salalah Port, Oman; Al Udeid Air
Base, Qatar; Al Jaber, Kuwait; Al Dhafra, United Arab Emirates; and Manama, Bahrain.
Pre-positioned WRM included basic expeditionary airfield resources, medical supplies,
munitions, vehicles, and aerospace ground equipment.

The former WRM contract (F44650-00-C0006) was originally scheduled to end on
September 30, 2006; however, the contract was extended through September 30, 2008, to
conduct a thorough source selection for the new WRM contract (FA4890-08-C-0004).
AFCENT managed the former WRM contract (F44650-00-C0006) with DynCorp,
International (DynCorp), which ended on September 30, 2008. The DOD Inspector
General issued report D-2009-108, “U.S. Air Forces Central War Reserve Materiel
Contract,” on September 23, 2009, finding that AFCENT officials did not effectively
manage or administer the former WRM contract (F44650-00-C0006). Air Force officials
transferred solicitation and contract management responsibilities for the new WRM
contract (FA4890-08-C-0004) from AFCENT to the Air Force’s Air Combat Command
Acquisition Management and Integration Center (AMIC) in September 2006. AMIC
provides strategic acquisition management for the Air Combat Command through
integrated program management and contract support.

AMIC is responsible for the administration and management of the new WRM contract.
AMIC contracting personnel awarded the WRM contract to DynCorp in June 2008 for
the receipt, inventory, maintenance, repair, periodic inspection and testing, servicing,
marking, storage, security, shipping, and reporting of WRM. The WRM contract was
awarded as a hybrid firm-fixed-price and cost-plus-award-fee contract for a base year
from October 1, 2008, through September 30, 2009, and 7 additional option years with a
total estimated value of $419 million.




1
 Air Force Instruction 25-101, “War Reserve Materiel (WRM) Program Guidance and Procedures,”
May 2, 2005, defines reconstitution as measures taken to bring required resources together in appropriate
quantities to restore effective U.S. Air Force operational force or support function after being used.


                                                     1

The WRM contracting officer and program manager were both located at AMIC in
Newport News, Virginia. AFCENT, located at Shaw Air Force Base, South Carolina,
was the customer for the WRM contract and retained operational control of the WRM
program. Additionally, quality assurance evaluators (QAEs) located at the Executive
Coordinating Agency in Muscat, Oman, and Al Udeid Air Base, Qatar, performed quality
assurance actions on the WRM contract. QAEs were assigned to and managed by
AFCENT; however, AMIC had program and contract accountability and was responsible
for the Government quality assurance process.

Review of Internal Controls
We identified internal control weaknesses in the WRM contract as defined by DOD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006. Although Air Force officials improved WRM contract management, they did not
have a formal agreement that defined roles and responsibilities of AMIC and AFCENT
personnel regarding the WRM program. Additionally, AMIC and AFCENT had not
developed written standard operating procedures that formalized each organization’s
internal control processes for the WRM program. Implementing all the recommendations
in this report will improve administration and oversight of the new WRM contract, as
well as AMIC’s and AFCENT’s controls. We will provide a copy of this report to the
senior official responsible for internal controls in the Department of the Air Force.




                                          2

Finding A. Improved Management of the
New War Reserve Materiel Contract
AMIC officials awarded and were providing oversight of the $419 million WRM contract
in accordance with Federal and DOD policies. Specifically, AMIC officials
appropriately conducted the WRM contract source selection. In addition, AMIC officials
improved contract management2 through:

        procedures to properly assess and document contractor performance; and
        steps to ensure that WRM requirements were valid and appropriately priced,
         funding was properly committed and obligated to the WRM contract, and invoices
         were consistent with the work the contractor performed.

Source Selection and Contract Award
AMIC officials conducted the WRM contract source selection process in accordance with
Federal and DOD policies and awarded the WRM contract to the highest rated offeror
based on the four proposal evaluation factors listed in the WRM solicitation. The WRM
acquisition plan stated that full and open competition would be used to award the WRM
contract and that the Government expected adequate price competition. AMIC officials
awarded the WRM contract to the offeror that they determined represented the best value
to the Government.

AMIC contracting personnel solicited the WRM contract as a competitive, best value
source selection. In August 2007, AMIC contracting personnel issued the WRM
solicitation, FA4890-07-R-0014, for WRM support. Five offerors submitted proposals,
and, after initial proposal evaluations, the source selection authority established a
competitive range that included the most highly rated proposals.3

The Source Selection Evaluation Team (SSET) conducted proposal evaluations in three
phases: initial evaluation, interim evaluation, and final evaluation. During the initial
evaluation phase, the SSET evaluated the offerors’ proposals, established the initial
ratings for each offeror, and issued evaluation notices to offerors.4 During the interim
evaluation phase, the SSET evaluated the offerors’ responses to the evaluation notices,
adjusted the initial ratings based on those responses, and requested final proposal
revisions from the offerors. During the final evaluation phase, the SSET evaluated the
offerors’ final proposal revisions, established the final ratings, and recommended
awarding the contract to DynCorp based on a comparative analysis of the final ratings.



2
  See DOD Inspector General report D-2009-108 for findings pertaining to the management of the former 

WRM contract. 

3
  Competitive range determinations are source selection information and, therefore, we are not disclosing


the number of offerors included in the competitive range.


4
  The SSET issued evaluation notices to the offerors to obtain further information regarding areas that the 

SSET could not evaluate because the offerors’ proposals were not clear. 



                                                      3

Quality Assurance
AMIC personnel implemented procedures to properly assess and document DynCorp’s
performance on the WRM contract. Federal Acquisition Regulation (FAR) Part 46,
“Quality Assurance,” requires that services acquired under a Government contract
conform to the contract’s quality and performance requirements. Additionally, Air Force
Instruction 63-124, “Performance Based Service Contracts,” August 1, 2005, requires
that a performance plan identify strategies, methods, and tools for assessing the
contractor’s performance against the performance thresholds and measurements in the
contract. The quality assurance process developed by AMIC provided procedures to
ensure that the services acquired under the WRM contract conformed to the contract’s
quality and performance requirements, as required by FAR part 46. The methods used to
assess DynCorp’s performance against performance thresholds and measurements were
identified in the contract’s Performance Work Statement (PWS) and were integrated into
the contract’s Integrated Performance Management Plan (IPMP) and surveillance
techniques, in accordance with Air Force Instruction 63-124.

Quality Assurance Process
The AMIC quality assurance division created an IPMP for the WRM contract that
defined surveillance policies, procedures, and methods for planning and performing
contract surveillance and analyzing data to report on contractor performance. The IPMP
provided a surveillance method for each service identified in the WRM PWS. QAE
surveillance methods were based on contract requirements, and the WRM PWS dictated
the type of surveillance techniques required.

The AMIC contracting officer appointed a Flight Chief of Quality Assurance, a Senior
QAE, and 11 QAEs to the WRM contract. The Flight Chief of Quality Assurance was
responsible for overseeing and performing quality assurance surveillance and scheduling
QAE surveillance inspections. The Senior QAE was responsible for providing training
and oversight of QAEs and coordinating contractor support for U.S. Central Command5
responses to contingencies, exercises, and wartime outloads.6 QAEs were responsible
for:

         planning, scheduling, coordinating, and performing inspections;
         verifying performance and compliance with contract terms;
         analyzing data and documenting inspection findings; and
         writing inspection reports.

QAEs gathered and analyzed evidence during surveillance audits to determine whether
DynCorp complied with contract requirements, quality objectives, and standards. QAEs
were performing three types of surveillance audits: group, team, and desktop. During a


5
 The AFCENT WRM contract provided support for the U.S. Central Command. 

6
 Wartime outloads refer to removing WRM from storage and preparing it for use by ensuring WRM


serviceability, updating inventory records, arranging transportation to the user location, and assisting


Government personnel with setup at locations other than WRM storage sites. 



                                                       4

group audit, all QAEs responsible for commodities at a particular WRM storage site met
there to conduct a large audit of all of the site’s commodities. Group audits occurred four
times per year at the major WRM storage sites.7 A team audit was similar, but involved a
smaller group of QAEs. During a desktop audit, a QAE logged onto an online system to
verify that DynCorp was providing Contract Data Requirements Lists and other reports in
accordance with the PWS. Each QAE conducted three to four audits each month; the
audits were a combination of group audits, team audits, and desktop audits.

The methods used to assess DynCorp’s performance against performance thresholds and
measurements were identified in the contract’s PWS and integrated into the contract’s
IPMP and surveillance techniques, in accordance with Air Force Instruction 63-124. To
accomplish contract surveillance, QAEs used master checklists, DynCorp’s standard
operating procedures and work instructions, DynCorp’s quality assurance database and
inspection reports, and previous audit reports. The master checklists were linked to the
contract’s PWS requirements to ensure that DynCorp was performing according to the
contract’s PWS. For example, PWS section A, paragraph 4.4, “Refurbishment,” required
that DynCorp provide depot-level maintenance on used WRM vehicles and equipment
within 30 days of receipt of the assets. The QAE master checklist included an audit step
that required the QAE to verify whether DynCorp was performing depot-level
maintenance on used WRM vehicles and equipment within 30 days of receipt of the
assets, and the checklist item referenced PWS section A, paragraph 4.4. QAEs created
specific audit checklists before conducting an audit by selecting questions and inspection
items from the master QAE checklists that were posted on AMIC’s training management
system online database. The master checklists contained audit steps that connected
required performance standards in the PWS to specific inspection methods to determine
whether DynCorp was meeting the contract requirements.

The WRM contract quality assurance process provided procedures to ensure that the
services acquired under the WRM contract conformed to the contract’s quality and
performance requirements, as required by FAR part 46, by basing QAE surveillance
methods on contract requirements and incorporating the methods into the contract’s
IPMP.

Quality Assurance Products
AMIC personnel implemented steps to properly document DynCorp’s performance on
the WRM contract. QAEs created audit reports, monthly activity reports, and executive
summaries. QAEs captured the results of each audit in an audit report summarizing the
number of findings for that audit, including both minor and major nonconformances. The
audit reports addressed each WRM commodity, and the results of the QAE inspections
were listed by commodity. Each month, the Flight Chief of Quality Assurance compiled
the results of all QAE audits into a monthly activity report and submitted the report to
AMIC. Additionally, the Flight Chief of Quality Assurance prepared an executive
summary each month that listed the number of audit findings, corrective action requests

7
 Major WRM storage locations are in Seeb, Oman; Masirah, Oman; Thumrait, Oman; Al Udeid Air Base,
Qatar; and Manama, Bahrain.


                                                5

(CARs) issued, and QAE comments for that month. All these quality assurance products
provided the basis of AMIC’s objective evaluation of DynCorp’s contractual
performance during the award fee period.

When contract performance fell below the contract standards, QAEs classified the
discrepancy as a minor or major nonconformance. A minor nonconformance was one
that did not adversely affect the WRM mission, safety of personnel and equipment,
performance, schedule, or cost. A major nonconformance adversely affected the WRM
mission, safety of personnel and equipment, performance, schedule, or cost. The AMIC
contracting officer issued CARs to communicate major nonconformances to the
contractor. During the base year of the contract, the AMIC contracting officer issued
32 CARs to DynCorp for major contract nonconformances. DynCorp satisfactorily
resolved the issues identified in 18 of the CARs. As of January 2010, DynCorp had
responded to the remaining 14 CARS; however, AMIC personnel had requested revised
corrective action plans or were waiting to validate the corrective action plans during
upcoming surveillance audits. Each CAR specified the contract nonconformity and
included excerpts from the PWS detailing the section of the contract that DynCorp failed
to follow.

AMIC personnel implemented procedures to properly assess and document DynCorp’s
performance on the WRM contract. AMIC personnel developed a quality assurance
process that encouraged a high level of contractor performance by implementing
procedures to ensure that the services acquired under the WRM contract conformed to the
contract’s quality and performance requirements. Further, the methods AMIC and
AFCENT used to assess DynCorp’s performance against performance thresholds and
measurements were identified in the contract’s PWS and integrated into the contract’s
IPMP and surveillance techniques to ensure that contractor performance aligned with
WRM mission objectives.

AMIC and AFCENT Review Processes
AMIC personnel took steps to ensure that WRM requirements were valid and
appropriately priced, funding was properly committed and obligated to the WRM
contract, and invoices were consistent with the work the contractor performed. We
interviewed AMIC and AFCENT personnel to identify existing internal controls. We
also reviewed documentation supporting four requirements added to the WRM contract,
valued at approximately $14 million, to verify that officials applied the internal controls
when executing these requirements.

Requirements Review Process
AMIC and AFCENT personnel took steps to ensure that WRM requirements were valid
and appropriately priced. AFCENT WRM requirements and contract workload
continuously change because of the volatility in the AFCENT area of responsibility. As a
result, AFCENT personnel may identify new WRM requirements. Furthermore,
DynCorp may propose new requirements and submit the requirements for Government
approval.



                                             6

AMIC and AFCENT personnel took steps to ensure that new WRM requirements were
valid before executing them through contract modifications. Specifically, AFCENT
functional personnel created statements of work and independent Government cost
estimates when AFCENT identified new WRM requirements. The AFCENT WRM
officer and the AFCENT Deputy Director of Logistics were responsible for approving
and submitting new requirements to AMIC to be executed through contract
modifications. The AMIC contracting officer verified that new requirements were within
the scope of the contract and requested proposals from DynCorp to execute the
requirements. Both AFCENT and AMIC functional personnel reviewed DynCorp’s
proposals to verify that DynCorp accurately understood the requirements and to
determine whether the proposals appropriately addressed all portions of the statements of
work. In addition, when DynCorp identified new requirements and submitted proposals
for Government approval, AFCENT functional personnel reviewed the proposals to
determine whether they contained valid AFCENT requirements. If DynCorp’s proposals
were unclear, AFCENT and AMIC personnel requested clarification from DynCorp and
revised technical proposals to ensure the proposals met AFCENT’s needs for the WRM
program.

AMIC and AFCENT personnel also ensured that new WRM requirements were
appropriately priced when executed through a contract modification. After DynCorp
submitted cost proposals to AMIC, the AMIC cost analyst compared DynCorp’s
proposed prices with independent Government cost estimates created by AFCENT to
determine whether the proposed prices were reasonable. Furthermore, the AMIC cost
analyst reviewed DynCorp’s cost proposals to:

       determine whether the costs were mathematically correct,
       determine whether the indirect rates presented by DynCorp were accurate, and
       verify that costs were in line with DynCorp’s technical proposals.

AMIC personnel requested clarification and revised cost proposals from DynCorp to
ensure that the cost proposals served as a basis for fair and reasonable prices. AMIC
personnel conducted negotiations and documented the negotiations in price negotiation
memoranda when the AMIC contracting officer determined that negotiations were
needed to obtain fair and reasonable prices.

Contract Funding Process
AMIC and AFCENT personnel took steps to ensure that funding was properly committed
and obligated to the WRM contract. FAR Subpart 32.7, “Contract Funding,” requires the
contracting officer to obtain written assurance from the responsible fiscal authority that
adequate funds are available before executing any contract. The AMIC contracting
officer obtained written assurance of funds from AFCENT and AMIC analysts to ensure
that funds were available before executing a new requirement through a contract
modification, in accordance with FAR subpart 32.7. Specifically, once AFCENT
identified a new requirement, the AFCENT budget analyst determined whether funds
were available using the amount identified in the independent Government cost estimate
provided by AFCENT personnel. The AFCENT budget analyst then created a


                                            7

Form AF 616, “Fund Cite Authorization,” and obtained approval from an Air Force
accounting officer to commit funds for the required amount and transfer the funds from
AFCENT to AMIC. The AMIC budget analyst then created a Form AF 9, “Request for
Purchase,” to commit the required funding amounts for the WRM contract. The AMIC
contracting officer ensured that the AMIC budget analyst issued a Form AF 9 before
obligating the funds to the WRM contract.

Invoice Review Process
AMIC personnel also took steps to ensure that invoices were consistent with the work the
contractor performed. AMIC personnel reviewed DynCorp invoices before DynCorp
submitted them to the Defense Contract Audit Agency (DCAA) for approval. In
addition, AMIC maintained effective communication with DynCorp regarding issues
arising from invoice reviews.

In accordance with the WRM contract, DynCorp submitted monthly draft invoices by
contract line item number (CLIN) to AMIC personnel before submitting the invoices to
DCAA for formal review. AMIC personnel ensured the invoices were technically
consistent with the work performed and were approved by AMIC personnel before
DynCorp submitted the invoices to DCAA. In addition, AMIC personnel reviewed
QAEs’ certification of services to determine whether the services were performed. After
approving DynCorp’s invoices, AMIC personnel notified DynCorp to send the invoices
to DCAA for approval.

AMIC personnel also conducted monthly meetings to resolve Government invoicing
concerns and conducted two financial meetings to clarify billing procedures and resolve
systemic billing problems for the WRM contract. Furthermore, AMIC tracked all WRM
contract amounts using a detailed spreadsheet that recorded the contract value, the funded
amount, the invoiced amount, and the expended amount of each CLIN.

In addition to AMIC’s invoice oversight, DCAA reviewed DynCorp invoices.
Specifically, DCAA performed pre-payment and post-payment reviews of DynCorp
invoices based on DCAA’s approved sampling plans. A pre-payment review verified
that the invoices were adequate and costs were allowable before Government payment.
A post-payment review of invoices encompassed all the steps in pre-payment reviews and
involved DCAA auditors reviewing each billed line item in detail. DCAA determined
that the WRM contract was a high-risk Government contract and was therefore subject to
increased invoice reviews and audits in addition to DCAA’s scheduled audits to ensure
invoices were accurate.

Conclusion
After solicitation and post-award management responsibilities for the WRM contract
were transferred from AFCENT to AMIC, AMIC personnel improved WRM contract
management. Specifically, AMIC personnel ensured that QAEs properly assessed and
documented the contractor’s performance. AMIC personnel also took steps to verify
WRM requirements and to ensure that DOD obtained services at fair and reasonable
prices. Therefore, we are not making recommendations for this finding.


                                            8

Finding B. Roles, Responsibilities, and
Accountability
Air Force officials did not have a formal agreement that defined roles, responsibilities,
and accountability of AMIC and AFCENT personnel regarding the WRM program and
contract execution because AMIC and AFCENT personnel could not agree on language
describing program management and functional area roles, responsibilities, and
accountability. Furthermore, AMIC and AFCENT officials had not developed written
standard operating procedures that formalized each organization’s internal control
processes for the WRM program. AFCENT officials lacked defined processes while
ineffectively managing the former WRM contract and had no formal processes for the
new contract. Although AMIC officials developed effective informal processes, they did
not foresee the need to formalize the processes to ensure continuity. The disconnects on
roles, responsibilities, and accountability between AMIC and AFCENT and a lack of
written standard operating procedures could later result in delayed WRM requirements
execution, ineffective quality assurance surveillance, and failure in other internal control
processes. Additionally, accountability for the day-to-day execution of the WRM
contract may become uncertain without a formal agreement and written standard
operating procedures.

AMIC and AFCENT officials should execute a written memorandum of understanding
(MOU) describing each organization’s roles, responsibilities, and accountability, and
establish written standard operating procedures to formalize the internal control processes
being used for the WRM program to improve contract management and ensure that the
Air Force provides effective WRM mission support.

In addition, two areas require further monitoring.
     The fee determining official (FDO) failed to adequately document the rationale
        for a final award fee determination that differed from the Award Fee Review
        Board’s (AFRB’s) recommendation during the first award fee period.
     The total estimated contract value increased by approximately $24 million, or
        6 percent, during the base year of the contract because of fluctuations in WRM
        requirements. Troop withdrawals in Iraq and troop surges in Afghanistan could
        cause the estimated contract value to exceed the scope of the original competition.

Consequently, the fee determining official should document the rationale for any final
award fee determination that differs from the AFRB’s recommendation, and AMIC
should continue to ensure that all changes to the contract, including changes in contract
value, that are determined to be beyond the scope of the original competition are properly
competed or justified using a justification and approval for other than full and open
competition.




                                             9

Memorandum of Understanding
Air Force officials did not have a formal agreement that clearly defined the roles,
responsibilities, and accountability of AMIC and AFCENT personnel regarding the
WRM program and contract. DOD Instruction 4000.19, “Interservice and
Intragovernmental Support,” requires that broad areas of recurring intragovernmental
support and cooperation be documented in an MOU. According to Air Force Instruction
25-201, “Support Agreements Procedures,” May 1, 2005, MOUs are used to define
general areas of understanding between two or more parties and explain what each party
plans to do. MOUs can be used to document mutually agreed upon areas of
responsibilities, such as intentions, procedures, and policies for future actions. MOUs are
procedural in nature and do not obligate funds or manpower for recurring support.

The relationship between AMIC and AFCENT with regard to the WRM program and
contract represents recurring intragovernmental support and cooperation. AFCENT was
responsible for $5.2 billion in pre-positioned WRM assets to support deployed forces in
the AFCENT area of responsibility and used the WRM contractor to reduce the time
required to get needed supplies to the warfighter. AMIC was responsible for managing
the WRM contract, valued at approximately $419 million, which contained contract
requirements that continually changed because of the volatility in the AFCENT area of
responsibility. As the customer for the WRM contract, AFCENT developed contract
requirements to get needed supplies to the warfighter; AMIC was responsible for putting
the requirements on contract and ensuring that the Government obtained the required
services at fair and reasonable prices.

WRM contract surveillance, in particular, necessitated recurring intragovernmental
support and cooperation between AMIC and AFCENT. According to FAR part 46, the
contracting office is responsible for verifying that the contractor fulfills the contract
quality requirements. The AMIC contracting officer appointed QAEs to the WRM
contract to conduct WRM storage site surveillance and ensure that the contractor
complied with the technical requirements of the contract; however, AFCENT retained
operational control of QAEs. The QAE reporting chain of command was through the
Executive Coordinating Agency Commander and then to the AFCENT Director of
Logistics; however, QAEs were required to execute AMIC’s quality assurance process
and provide audit reports, monthly activity reports, CARs, and executive summaries
periodically to AMIC personnel. AFCENT and AMIC had not executed a formal
agreement detailing the operational alignment of QAEs.

According to AMIC personnel, they provided a draft MOU to the AFCENT Director of
Logistics in March 2009 to define the roles, responsibilities, and accountability of each
agency regarding the WRM program and contract. However, as of January 2010, AMIC
and AFCENT personnel had not agreed to an MOU. AMIC and AFCENT personnel
could not agree on language describing program management and functional area roles,
responsibilities, and accountability of QAEs. Although QAEs reported through
AFCENT, QAEs performed quality assurance duties delegated by the AMIC contracting
officer and were required to submit quality assurance reports to AMIC personnel. Using
the quality assurance process implemented by AMIC, AFCENT identified DynCorp


                                            10 

performance deficiencies and communicated the deficiencies to AMIC. However, given
the problems identified with AFCENT’s management of the former WRM contract with
DynCorp, it is imperative that AFCENT and AMIC document the process and formally
designate roles, responsibilities, and accountability to minimize risk and ensure that
effective quality assurance surveillance continues for the life of the WRM contract.

Without a formal agreement that clearly defines the roles and responsibilities of each
agency, the disconnects on roles and responsibilities between AMIC and AFCENT could
later result in delayed WRM requirements execution, and accountability for the day-to-
day execution of the WRM contract may become uncertain. To ensure that WRM
requirements are promptly executed and contract quality assurance surveillance is
effective, AMIC and AFCENT should come to an agreement on each organization’s
roles, responsibilities, and accountability. The Commander, Air Combat Command,
should ensure that AFCENT and AMIC reach an agreement.

Standard Operating Procedures
Although AMIC and AFCENT personnel improved WRM contract administration,
additional contract oversight improvements are needed to ensure that appropriate contract
oversight continues for the life of the contract. AMIC and AFCENT personnel did not
have standard operating procedures for the requirements, funding, and invoice review
processes. AFCENT officials lacked defined processes while ineffectively managing the
former WRM contract and had no formal processes for the new contract. Although
AMIC officials developed effective informal processes, they did not foresee the need to
formalize the processes to ensure continuity. Unclear procedures could later result in a
delay in WRM requirements execution and the approval of deficient contractor invoices.
Furthermore, written standard operating procedures that formalize the WRM
requirements, funding, and invoicing processes could improve contract oversight.

Award Fee Process
Award fees are mechanisms to motivate the contractor to perform beyond satisfactory
work. AMIC officials created an award fee plan that identified measurable outcomes and
stated how the contractor’s performance would be evaluated, in accordance with DOD
guidance. The AFRB was responsible for evaluating the contractor’s performance and
recommending an award fee amount to the fee determining official (FDO), who made the
final determination regarding the amount of award fee earned by the contractor during the
evaluation period. However, the FDO did not adequately document the rationale for
changing the AFRB recommendation, as required by the Air Force Award Fee Guide,
March 2002.

The Under Secretary of Defense for Acquisition, Technology, and Logistics
memorandum, “Award Fee Contracts,” issued on March 29, 2006, states that award fees
should be tied to identifiable outcomes. Additionally, the memorandum states that award
fee provisions must clearly explain how a contractor’s performance will be evaluated and
state that performance that is less than satisfactory is not entitled to any award fee. The
WRM award fee plan described specific criteria and procedures for assessing the
contractor’s performance and determining the amount of award fee earned.


                                            11 

The FDO was responsible for reviewing the recommendation of the AFRB, considering
all pertinent data, and determining the final award fee rating and amount for each
evaluation period. According to the Air Force Award Fee Guide, when the FDO award
fee determination differs from the AFRB recommendation, the rationale should be
documented in the official contract file and explained in reference to the award fee plan.

First Award Fee Period
The FDO did not adequately document the rationale for a final award fee determination
that differed from the AFRB recommendation during the first award fee period, a
problem that the DOD Office of Inspector General identified during an audit of the
former WRM contract.8 During the first award fee period for the WRM contract, the
FDO raised the AFRB’s recommended rating in two evaluation areas by a total of
1.5 percent, or $9,797, resulting in an award fee payment of $466,155. The FDO issued a
memorandum indicating that he changed the AFRB’s recommendation “after reviewing
the criteria set forth in Annex 2 of the Award Fee Plan.” After comparing the criteria
contained in the award fee plan with the award fee briefs presented by the AFRB
Chairperson to the FDO, we found no clear reason why the FDO raised the ratings in
these two evaluation areas. The FDO simply stated that he reviewed criteria in the award
fee plan; however, the FDO did not specify which criteria led him to raise the award fee
rating, or how he determined the amount of the increased rating. Therefore, the FDO did
not adequately document his rationale for changing the AFRB recommendation, as
required by the Air Force Award Fee Guide.

Although the use of an award fee introduces some subjectivity in the evaluation of the
contractor’s performance, the Air Force Award Fee Guide requires that a disciplined
approach be used. Documentation should demonstrate that the process set forth in the
award fee plan was followed and that the rating recommendations and final
determinations were based on actual performance and evaluated according to the award
fee plan. By unilaterally changing the AFRB recommendation during the first award fee
period without properly documenting the rationale for the change, the FDO may have
undermined the award fee process and discouraged the contractor from improving poor
performance. In the future, the FDO should reference the award fee plan in explaining
the rationale for changing the AFRB recommendation, and document the explanation in
the official contract file.

Second Award Fee Period
AMIC officials implemented the award fee process described in the award fee plan
during the second award fee period, and the contractor received no award fee. The WRM
award fee plan stated that failure to meet satisfactory contract performance requirements
would result in zero award fee for the period. According to the evaluation criteria in the
WRM award fee plan, the contractor’s failing to manage or control costs within contract
projections would result in an unsatisfactory rating in cost management. Further, the


8
    See Finding E in DOD Inspector General report D-2009-108 for a discussion of this issue.


                                                     12 

WRM award fee plan stated that actual costs exceeding estimated costs by a large
percentage and inadequate cost documentation would also result in an unsatisfactory
rating.

During the second award fee period, the contractor requested additional funds to
complete work for the base year of the contract. The WRM contracting officer requested
supporting documentation from the contractor multiple times to evaluate the contractor’s
assertions of cost overruns. According to the WRM contracting officer and WRM
program manager, the contractor failed to support a majority of the cost overruns to the
satisfaction of the Government, and additional funds for the unsubstantiated cost overruns
were not placed on the contract. Further, the contracting officer issued DynCorp
16 CARs against 9 PWS contract standards during the award fee period. This failure to
manage or control costs within contract projections and failure to meet contract
requirements resulted in the FDO’s determination that the contractor did not achieve
satisfactory performance in cost management and contract performance. Therefore, the
contractor received none of the $685,186 available in the award fee pool.

When implemented correctly, the award fee process rewards good performance,
incentivizes a contractor to improve poor performance, and records the Government’s
assessment of the contractor’s progress. The FDO provided significant motivation for the
contractor to improve cost management by following the award fee plan during the
second award fee period and by appropriately awarding zero award fee based on the
contractor’s performance.

Contract Scope Changes
The former WRM contract was awarded with an estimated contract value of $174 million
and ended with a total contract value of $621 million. During the base year of the new
WRM contract, the contracting officer monitored the total estimated contract value,
which increased significantly because of fluctuations in WRM requirements. Future
changes in the AFCENT contingency environment could increase WRM reconstitution
and outload requirements, causing additional increases in the estimated contract value.
The dynamic nature of the work performed on the WRM contract, combined with the
$447 million increase on the former WRM contract, represents a risk that the value of the
new WRM contract could increase beyond the scope of the original competition.

Contract Value
AMIC contracting personnel awarded the new WRM contract for a total estimated value
of approximately $419 million. The WRM contract consisted of a base year with an
estimated value of $48 million at time of award, and 7 option years with an estimated
value of $371 million at the time of award. During the base year, AMIC contracting
personnel issued 24 modifications that increased the total estimated contract value for the
base year and all option years by approximately $24 million, equivalent to 6 percent of
the total initial estimated contract value. This included an increase of approximately
$7 million, equivalent to 15 percent, in the estimated value of the base year. The
following table shows the WRM contract value changes made during the base year of the
contract.


                                            13 

                     Changes in Estimated Contract Value 

              From October 1, 2008, Through September 30, 2009 

                                  (millions)
Contract Year      Initial        Estimated       Change in                   Percent
                 Estimated       Value as of      Estimated                  Change in
                 Value as of    Sept. 30, 2009      Value                    Estimated
                Oct. 1, 2008                                                   Value
Base Year          $47.76           $54.92          $7.16                       15
Option Year 1       49.16            51.69            2.53                       5
Option Year 2       50.40            52.77            2.37                       5
Option Year 3       51.75            54.07            2.32                       4
Option Year 4       53.04            55.43            2.39                       5
Option Year 5       54.25            56.70            2.45                       5
Option Year 6       55.47            57.98            2.51                       5
Option Year 7       56.74            59.29            2.55                       5
 Total            $418.57         $442.85          $24.28                        6
Note: Percent changes are rounded.

On November 17, 2008, representatives from the United States and the Republic of Iraq
signed an agreement on the withdrawal of U.S. forces from Iraq, stating that U.S. forces
would withdraw from all Iraqi territory by December 31, 2011. Once large numbers of
troops begin withdrawing from Iraq, reconstitutable WRM assets currently residing with
deployed forces will be returned to the WRM inventory. DynCorp is required to ensure
that WRM returned from deployment is inspected, reentered into the recurring
maintenance schedule, and configured for storage. As bases in Iraq close, a mass influx
of assets from deployed forces could increase WRM reconstitution and maintenance
requirements and, consequently, lead to increases in the estimated value of the WRM
contract. However, until DOD develops firm plans detailing which bases will be closing
and when the bases will close, it is difficult for AFCENT officials to estimate the amount
of additional work and the costs of managing WRM.

In December 2009, the President announced that he would send an additional 30,000 U.S.
troops to Afghanistan. The increase of U.S. troops in Afghanistan could cause increased
WRM outload and reconstitution requirements to ensure that bases are equipped to
handle additional troops. Additional WRM outload and reconstitution requirements for
the surge in Afghanistan could lead to further increases in the estimated value of the
WRM contract.

Determination of Contract Scope
In Freund v. United States, 260 U.S. 60 (1922), the U.S. Supreme Court stated that work
performed under a contract falls within the general scope of the contract if it could be
“regarded as fairly and reasonably within the contemplation of the parties when the


                                            14 

contract was entered into.” The test employed in determining whether work has been
improperly added to a contract was further stated in American Air Filter Co., 57 Comp.
Gen. 567, 78-1 CPD para. 443 (1978):

               The impact of any modification is in our view to be determined by
               examining whether the alteration is within the scope of the competition
               which was initially conducted. Ordinarily, a modification falls within
               the scope of the procurement provided that it is of a nature which
               potential offerors would have reasonably anticipated under the changes
               clause.

               To determine what potential offerors would have reasonably expected,
               consideration should be given, in our view, to the procurement format
               used, the history of the present and related past procurements, and the
               nature of the supplies or services sought.

The WRM contracting officer stated that she generally considers a 15- to 20-percent
increase in the total estimated contract value to be beyond the scope of the original
competition; however, she also considers the nature of the specific procurement and
examines whether a proposed contract value increase would have affected the original
competition.

According to FAR Part 6, “Competition Requirements,” contracting officers must
promote and provide for full and open competition when awarding out-of-scope
modifications to existing Government contracts. A justification and approval for other
than full and open competition must be issued for every contract action awarded without
full and open competition, and it must contain a reference to one of the seven authorities
under which the contract was awarded. Therefore, if the estimated value of the WRM
contract exceeds the scope of the original competition, the WRM contracting officer must
issue a justification and approval for every contracting action that changes the value of
the contract or recompete the entire contract with the expanded scope.

The WRM contracting officer should expect the estimated contract value of the WRM
contract to exceed the scope of the original competition as a result of troop withdrawals
in Iraq and troop surges in Afghanistan. The total estimated WRM contract value has
already increased by 6 percent during the base year, and additional WRM contract
requirements likely will be needed. Air Force officials should develop internal controls
to identify scope changes and ensure that proposed significant alterations to the contract
are reviewed as potential scope changes. If a proposed alteration would result in a
change of scope to the contract, Air Force officials should compete or appropriately
approve the change in accordance with FAR requirements. This process should be
appropriately documented in the contract file.

Conclusion
Contracting for services is especially complex and demands close collaboration between
procurement personnel and the customer to ensure that contractor performance meets
contract requirements and performance standards. Therefore, AMIC and AFCENT
officials should execute an MOU that clearly defines the roles, responsibilities, and


                                                 15 

accountability of each organization regarding the WRM program. Further, AMIC and
AFCENT officials should develop written standard operating procedures to ensure that
effective contract administration actions continue for the life of the WRM contract.

Recommendations, Management Comments, and Our
Response
Deleted and Renumbered Recommendations
As a result of management comments and additional audit work, we deleted draft
Recommendations B.3.d and B.4.b. Draft Recommendation B.4.a was renumbered as
Recommendation B.4.

B.1. We recommend that the Commander, Air Combat Command, direct
Acquisition Management and Integration Center and U.S. Air Forces Central
officials to execute a formal, written memorandum of understanding that defines all
roles, responsibilities, and the accountability of the two organizations regarding the
War Reserve Materiel program.

Air Combat Command Comments
On behalf of the Commander, Air Combat Command, the Director of Installations and
Mission Support, Air Combat Command, agreed with the recommendation, stating that
the MOU between AMIC and AFCENT was signed on May 6, 2010. The Director stated
that the MOU defines roles, responsibilities, and accountability of both organizations
regarding the WRM program. Additionally, attached to the MOU are five operating
instructions that cover the roles and responsibilities of contracting and program
management, funding, quality assurance, logistics, and civil engineering.

Our Response
The Director’s comments were responsive and met the intent of the recommendation. No
additional comments are required.

B.2. We recommend that the Commander, U.S. Air Forces Central, require the fee
determining official to reference the award fee plan for contract FA4890-08-C-0004
in documenting the rationale for final award fee determinations that differ from the
contract award fee board’s recommendations, in accordance with the Air Force
Award Fee Guide.

AFCENT Comments
The Commander, U.S. Air Forces Central, agreed with the recommendation, stating that
the Commander, AFCENT, will require the fee determining official to reference the
award fee plan for contract FA4890-08-C-0004 when documenting the rationale for final
award fee determinations that differ from the contract award fee board’s
recommendation.




                                          16 

Our Response
The Commander’s comments were responsive and met the intent of the recommendation.
No additional comments are required.

B.3. We recommend that the Director, Acquisition Management and Integration
Center, Air Combat Command:

        a. Develop internal controls to identify scope changes and ensure that
significant proposed alterations to contract FA4890-08-C-0004 are reviewed as
potential scope changes.

        b. Require the contracting officer to properly compete or approve all
changes to contract FA4890-08-C-0004 that are determined to be beyond the scope
of the original competition.

       c. Coordinate with the Director of Logistics, U.S. Air Forces Central, to
develop and implement written standard operating procedures for the Acquisition
and Management Integration Center that document the requirements review
process, the contract funding process, and the invoice review process for contract
FA4890-08-C-0004.

Air Combat Command Comments
The Director of Installations and Mission Support, Air Combat Command, responded for
the Director, Acquisition Management and Integration Center, Air Combat Command,
and agreed with the recommendation. The Director stated that all contract changes
determined to be beyond the scope of the original competition will be accomplished in
accordance with FAR Part 6, “Competition Requirements.” The Director indicated that
Air Force Federal Acquisition Regulation Supplement 5343.102-90, “Contract Scope
Considerations,” addresses contract scope and states that contracting officers must assess
scope when modifying contracts. The Director also stated that contract actions undergo a
review process based on the complexity and dollar value of the contractual action, which
is governed by Air Force Federal Acquisition Regulation Supplement 5301.90,
“Clearance,” and AMIC Standard Operating Procedure 64-105, “Contract Document
Review,” provides a contract modification checklist addressing actions required for out of
scope contract modifications. Additionally, the Director stated that the MOU between
AMIC and AFCENT was signed on May 6, 2010, and attached to the MOU are five
operating instructions that cover the roles and responsibilities of WRM contracting and
program management, funding, quality assurance, logistics, and civil engineering.

Our Response
The Director’s comments were responsive and met the intent of the recommendation. No
additional comments are required.

B.4. We recommend that the Director of Logistics, U.S. Air Forces Central,
coordinate with the Director, Acquisition Management and Integration Center, Air
Combat Command, to develop and implement written standard operating


                                           17 

procedures for U.S. Air Forces Central that document the requirements review
process and the contract funding process for contract FA4890-08-C-0004.

AFCENT Comments
The Commander, U.S. Air Forces Central, agreed with the recommendation, stating that
AFCENT will collaborate with AMIC to establish standard operating procedures that
document the requirements review and contract funding process for contract
FA4890-08-C-0004. The Director of Installations and Mission Support, Air Combat
Command, responded in the Air Combat Command’s comments that the MOU between
AMIC and AFCENT was signed on May 6, 2010, and attached to the MOU are five
operating instructions that cover the roles and responsibilities of WRM contracting and
program management, funding, quality assurance, logistics, and civil engineering.

Our Response
The Commander’s comments were responsive and met the intent of the recommendation.
No additional comments are required.




                                           18 

Appendix: Scope and Methodology
We conducted this performance audit from July 2009 through May 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We evaluated whether Air Force officials awarded and were providing oversight of the
AFCENT WRM contract (contract FA4890-08-C-0004) in accordance with Federal and
DOD policies. We conducted interviews and collected, reviewed, and analyzed
documents from AMIC, AFCENT, and DCAA, dated March 2005 through December
2009.

We reviewed the WRM basic contract, awarded to DynCorp on June 11, 2008, and
41 contract modifications dated September 2, 2008, through September 30, 2009. We
reviewed pre-award documentation including the acquisition plan, the source selection
plan, market research reports, the contract solicitation, pre-award briefings, DCAA
reports, competitive range determinations, the proposal analysis report, and the source
selection decision document. We reviewed contract file documentation including
DynCorp proposals; Government proposal reviews; funding documents; price negotiation
memoranda; award fee documentation, including CARs and award fee determinations;
AFCENT base closure procedures; and e-mail correspondence.

We interviewed personnel at the Air Force Program Executive Office for Combat and
Mission Support, AMIC headquarters, and AFCENT headquarters. We interviewed the
Program Lead, Air Force Program Executive Office for Combat and Mission Support.
We interviewed the AMIC Director and the AMIC Deputy Director. We interviewed the
AFCENT Director of Logistics and the AFCENT Deputy Director of Logistics. We
interviewed the WRM program manager, the WRM officer, members of the WRM SSET,
WRM functional area managers, AMIC and AFCENT financial personnel, and other
WRM program management personnel. We interviewed the acting WRM procurement
contracting officer, a WRM administrative contracting officer, the WRM quality
assurance manager, and other WRM contracting personnel. We also interviewed the
branch manager and the supervisory auditor at DCAA’s Fort Worth, Texas, branch
office.

We reviewed applicable contracting regulations, including the United States Code, the
FAR, the Defense Federal Acquisition Regulation Supplement, and Air Force guidance.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




                                          19 

Prior Coverage
During the last 5 years, the DOD Inspector General and the Air Force Audit Agency have
issued two reports discussing AFCENT’s WRM program. Unrestricted DOD Inspector
General reports can be accessed at http://www.dodig.mil/audit/reports. Air Force Audit
Agency reports are not available on the Internet.

DOD Inspector General
DOD Inspector General Report No. D-2009-108, “U.S. Air Forces Central War Reserve
Materiel Contract,” September 23, 2009

Air Force
Air Force Audit Agency Report No. F2009-0003-FD3000, “United States Air Forces
Central War Reserve Materiel,” January 7, 2009




                                         20 

Air Combat Command Comments






                                         DEPARTMENT OF THE AIR FORCE
                                             HEAOOUARTERS Am COMBAT COMMANO
                                               LANGLEY Am FORCE BASI:, VIRGINIA




                                                                                                            HAY 06 Z010
      MEMORANDUM FOR SA F/PMP

      FROM: HQ ACC/A 7
                  [29 A ndrews Street. Sui te 102
                 Langley AFB VA 2J66:'l·2769

     SU BJ ECT : DoD IG Draft Re port : Oversight          or the U.S. Air Fo rcc~ Ccmral War Reserve
                     Malericl Contrac t (Project No. 0-2009-DOOOAS -0264.000l

      I. On behalf or COMACC. HQ ACetA 7 provides the followi ng response 10 subject 000 IG draft
     reporl Reco mmendnliol1 I:

           Reco mmendatio n I: [0 00 IG I rccollll1lcuds that Ill!.! CO lllmander. Air Co mb.1I Command direct
           lAM lei :md rUSAFCENTJ offi cials to CXl."Cutc a formilL written memora ndum of undcr5ltlndi ng
           lhal defines all ro les. rcspollsibililil!s. and the accountab ility or [he two organizations regarding
           the War Reserve Malerie l program.

           Management Comments: Concur with intent. howeve r COM ACC direc ti on is nOI required.
           11le !\'lemor:lndulll of UnderSI;lIldi ng (M OU ) between AM IC and USA FCENT was sig ned on 6
           May 10. 'Ille MOU dcllncs the ro les, responsib il ities and nccOlll1tabiliLy of boLh organizations as
           Ihey relale 10 Ihe USA FCENT War Rcscn'c Materiel (WRM ) Progra m and Ihe AM I C- m ~1Il:l ged
           USAFCENT WRM contract. Attached 10 the MOU arc fi vc (5) Operating instructions (0 1)
           which further clcw.i1the roles and responsibilities of AM I and USAFCENT with regard LO the
           WRM contract. TI1CSC O ls include Contract & Program MOll11gcmclII . Quality Assurance.
           Funding. Log istics ,md Ci vi l Eng.incer. CO r-.'I PL ETED.

                                              A C AM IC, has notilicd ACC/FMFPM
                               tcam                       thatthc MOU bas been signed. ~ agreed
     that an ACe/A 7 response 10 Rccol1llllend:lIi on I (on behnlf of ACC/C ) is nn ncceptoblc response
     to th is recommendalion .


     3. I s incerely appreciate YOU T st:IIT'f\ assist ance 0 11 this ~I lllli t. Please direct any questions to
     . . . . . . . ACC AM IC/PjI·,oI SW. cOll1 merc ial . . . . . . . . . . . . . . .. .




                                                                   DA VE C. HOWE
                                                                   Brigndicr General. USAF
                                                                   Din.:ctor of Installations and Mission Support

     cc;
     I-IQ ACCIDS
     USAFCENT/A4
     AC AM IC/D R




                                                                              21
                                   DEPARTMENT OF THE AIR FORCE
                                      HEAOOUARTERS AlA COMrlAT COMMAND
                                        lANGLEY AlA FORCE BASE. VIRGINIA




                                                                                          APR ZB2010


MEMORANDUM FOR SAFtFM P

FROM: HQ ACCtA7
      129 A ndrews Street, Suite 102
      Langley AFB VA 23665 -2769

SU BJECT: 0 00 10 Dra ft Report Oversight          or the U.S . Air Porces Central War Reserve
                 M aleric l Conlracl (Projecl No, D-2009-DOOOAS-0264,OOO)

I.   1-1 0   ACCfA 7 has reviewed the subject Draft Report and prov ides the following response to
the 000 10 ' s recommendations:
     Recommendation 3.a: Develop interna l controls 10 identi fy scope chlJnges and ensure that
     s igniricl.I nl proposed alterations to contrac t FA4890-08-C-0004 nrc reviewed as potential
     scope cha nges.

     Management Comment: Existing policies, guidance and internal control s already
     adequately reinforce Ihm COs exercise sou nd judgment in cont ract actions. to include scope
     determinations related to I>os t-awa rd modificat ions. FA R 1.602-2 charges a CO to ensure
     "performance of al l necessary actions for effect ive contractin g" whi le being "allowed wide
     lat itude to exerc ise bus incss judgment," It additi onal ly charges a CO to request and consider
     the advice of specialists in doing so. AFFA RS 5343. 102-90 addresses contract scope.
     provid ing that COs "mu st assess scope when modi fying contracts." Con trac t act ions undergo
     a disci plined rev iew process dependent upon complexity and doll ar value of the aClion. and
     l hi s process is governed   by AFFARS 5301 ,90, Clenmnce, A n AM IC Standard Operating
     Procedure. SOP 64-105. provides in the modification check list an item addressi ng add it ional
     actions requ ired fo r out-or-scope modifications. These requiremen ts are consistent with
     AFFARS 5343.102-90, Compleled.

     Recommendation 3.b: Req uire the contractin g officer to prope rl y compete or approve all
     changes to contract FA4890-08-C-0004 thal arc determined to be beyond the scope of the
     original compet ition.

     Management Commen t: Conc ur. All changes determined 10 be beyond the scope of the
     origi nal competi tion wi ll be ~l cco ll1pli s h ed in accordance with FA R Part 6 as required.
     Completed.

     Recommendation 3.c: Coordinate wi th the Director of Logistics, U.S. Air Forces Central .
     to deve lop and implemen t written standard operatin g procedures fo r the Acqui sition and




                                                                  22
                                                                                                    Final Report 

                                                                                                     Reference






   Management Integration Center that document the requirements review process, the contract
   funding process, and the invoice review process for contract FA4890-08~C-0004.

   Management Comment: Concur. AMIC and USAFCENT/A4 have been collaborating on
   a formal Memorandum of Understanding (MOU) and Operating In structions (Ols) and
   expectcompletionlsignatures by Jun 10. The MOU details roles, responsibilities and
   accountability of USAFCENT and AMIC regarding management of the WRM Contract and
   management of the USAFCENT WRM Program. The five (5) DIs cover Contracting &
   Program Management. Funding, Quality Assurance, Logistics, and Civil Engineer. These
   Dis detail the specific roles, responsibilities and procedures in specific functional areas
   required to manage the WRM contract. Open. ECD: I Jun 2010.

   Recommendation 3.d: Removed per guidance from DoD 10 team.                                     Deleted
                                                                                                  Recommendation
2. Additionally, ACClA7 requests a clarification within the Draft Report. Background
paragraph 3 (page ]) states "AMIC is responsible for administering the new WRM contract and
managing the WRM program." AMIC is indeed responsible for administration of the new WRM
contract, including Program Management in the context of contract administration. This is
clearly different than management of the WRM program as a whole. The USAFCENT War                 Revised
Reserve Materiel (WRM) Program encompasses much more than the WRM contract. Roles and
responsibilities for managing a WRM program are outlined in AFI 25~101. USAFCENT, as a
Component Command, is responsible for management of the USAFCENT WRM Program. As
suc h, USAFCENT/A4 is a principal member of the Air Force WRM Executive Review Board
and the Basic Expeditionary Airfield Resources (BEAR) Integrated Management Team. AMIC' s
role is limited to administering the WRM Contract to meet USAFCENT's requirements within
the scope of the WRM Contract and in support of the greater USAFCENT WRM Program.

3. I sincerely appreciate your stafrs assist a n c e _ u estions to
••••iliil•••• ACCAMIC. _                                         _




                                                  DAVEC. HOWE
                                                  Brigadier General. USAF
                                                  Director of Installations and Mission Support




                                                           23
U.S. Air Forces Central Comments
 





      --                         DEPARTMENT OF THE AIR FORCE
                         UNITED STATES AIR FORCES CE NTRA L COMMAND (AFCENT)
                                       AL UDE tD AIR BASE QATAR




                                                                                     3 May 2010
      MEMORANDUM FOR SA FfFMP

      FROM: USAFCENT /CC
            APO AE 09309

      SUBJECT: Report of Audit , Oversight of the U.S. Air Force Central Command (USAFCENT)
      War Reserve Materiel Co"ntract, Proj ect D2009-DOOOAS-0264.000

      1. USAFCENT concurs with the results and recommendations of the Oversight of USAF CENT
      War Reserve Materiel Program and Exercise & Contingency Logistics Support Contract
      (FA4 890-08 -C-0004) audit. USAFCENT is in ag.reement w ith formali zed standard operattng
      procedures and internal contro l processes that were deve loped in concert with AMIC and
      USAFCENT resulting in improve me nt of admin istration and ove rs ight of the new WRM
      contract. Specific management comments are attached.

      2.   OUT   contact for WRM m an ers is• • • • • • • • • • • • • • • • • •
      USAFC ENTI A4,




                                                    ~.~
                                                         Lieutenant General, USAF
                                                         Commander


      2 Attaclunents:

      1. Mam:gement Comment s
      2. Draft Report of Audit




                                         Global POII'U for America
                                                                                                              Final Report 

                                                                                                               Reference






                          Dep:t liment or Defense Inspector General
        RepOit of Audit, OVeI'sight orthe USAFCENT ' ''ar Reserve Materiel Contra ct
                              (l' r oj oc' 02009-1)000;\5-0264.000)


Rct:<lIlllllcndation.

2. We recomm end that the Commander, U.S. Air Forces Central , require the fee dctennining offi cial to
reference the award fcc plan for contract FA4890-08-C-0004 in documenting the rationale for final
award fcc determinations that differ from the eontmet award fcc board's recommendations. in
accordance w ith the Air Force Award Fee Guide.

A FCENT/CC COnllllents:

2. Conc ur. AFCENT /A4 will:

        a. Ensure the Commander, U.S. A ir Forces Central, requ ires the fcc detemlining oOiciul to
           reference the award f<:e plan for contract FA4890-08-C-0004, if/ when doc umenting the
           rationale for fin al award fcc determinations that differ from the contract award fcc board's
           recommendations. (Recomm ended Clos ure: 7 April 201 0)

Recollllllcndnt ion

4. We recomm end that the Director of Log istics, U.S. Air Forces Central :

3 . Coordinate with the Director, Acquis ition tvlanagemcnt and Integration Center, Air Combat
Command, to develop and implement wrillen standRrd operatin g procedures for U.S. Air Forces Central
that document the requirements review process and the contract fundin g process for contract FA4890-
08-C-0004.

b. Develop and impicm entnnnun i trainin g for War Reserve Materiel personnel involved in executing
the standard operating procedures developed in response to Recomm endlltion 4.ll.

AFCENT/A4 Comments :

4a. Con cur. AFCENT/A4 will :

       a. In collaborati on with the AC(IU is ilion Management and Integratioll Center, acquire             Renumbered as
             already established standard operating procedures that d oclUllent the requirements
             revicw and contract funding process for contract FA4890-08-C-0004 from AMI C.                  Recommendation
             Estimated Completi on Date: I June 20 10.                                                      B.4

4b. Concur. AFCENT/A4 will :

        b. Implement the training inil3live, in response 10 Recommendation 4.a., be conducted for all War
                                                                                                            Deleted
           Reserve Materiel personnel involved during the War Reserve ~'I a le ricl Review Board and/or     Recommendation
           Program Management Review Board conducted semi-annually.
           Estimaled Completion Dalc: t June 20 10.



                                                                                           Attachment t
